<html>
<title> - I AM WHO I SAY I AM: VERIFYING IDENTITY WHILE PRESERVING PRIVACY IN THE DIGITAL AGE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                     I AM WHO I SAY I AM: VERIFYING
                       IDENTITY WHILE PRESERVING
                       PRIVACY IN THE DIGITAL AGE

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                 TASK FORCE ON ARTIFICIAL INTELLIGENCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 117-39
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-386 PDF                 WASHINGTON : 2021                     
          
----------------------------------------------------------------------------------- 


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           PETE SESSIONS, Texas
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
                 
                 
                 TASK FORCE ON ARTIFICIAL INTELLIGENCE

                    BILL FOSTER, Illinois, Chairman

BRAD SHERMAN, California             ANTHONY GONZALEZ, Ohio, Ranking 
SEAN CASTEN, Illinois                    Member
AYANNA PRESSLEY, Massachusetts       BARRY LOUDERMILK, Georgia
ALMA ADAMS, North Carolina           TED BUDD, North Carolina
SYLVIA GARCIA, Texas                 TREY HOLLINGSWORTH, Indiana
JAKE AUCHINCLOSS, Massachusetts      VAN TAYLOR, Texas
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    July 16, 2021................................................     1
Appendix:
    July 16, 2021................................................    35

                               WITNESSES
                         Friday, July 16, 2021

Fredung, Victor, Chief Executive Officer, Shufti Pro.............    11
Grant, Jeremy, Coordinator, The Better Identity Coalition........     4
Kelts, David, Director of Product Development, GET Group North 
  America........................................................     6
Maynard-Atem, Louise, Research Lead, Women in Identity...........     7
Renieris, Elizabeth M., Professor of the Practice & Founding 
  Director, Notre Dame-IBM Technology Ethics Lab, University of 
  Notre Dame.....................................................     9

                                APPENDIX

Prepared statements:
    Fredung, Victor..............................................    36
    Grant, Jeremy................................................    45
    Kelts, David.................................................    67
    Maynard-Atem, Louise.........................................    80
    Renieris, Elizabeth..........................................    85

              Additional Material Submitted for the Record

Foster, Hon. Bill:
    Written statement of the Blockchain Advocacy Coalition.......    95
    Written statement of Rev. Ben Roberts, Foundry United 
      Methodist Church...........................................   100
    Written statement of the Texas Blockchain Council............   105
    Written statement of the Trust over IP Foundation............   107
    Written statement of ZorroSign, Inc..........................   110
Gonzalez, Hon. Anthony:
    Written statement of the National Association of Convenience 
      Stores.....................................................   116

 
                     I AM WHO I SAY I AM: VERIFYING
                       IDENTITY WHILE PRESERVING
                       PRIVACY IN THE DIGITAL AGE

                              ----------                              


                         Friday, July 16, 2021

             U.S. House of Representatives,
             Task Force on Artificial Intelligence,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The task force met, pursuant to notice, at 12 p.m., via 
Webex, Hon. Bill Foster [chairman of the task force] presiding.
    Members present: Representatives Foster, Casten, Adams, 
Garcia of Texas, Auchincloss; Gonzalez of Ohio, Budd, and 
Taylor.
    Ex officio present: Representative Waters.
    Chairman Foster. The Task Force on Artificial Intelligence 
will now come to order.
    Without objection, the Chair is authorized to declare a 
recess of the task force at any time. Also, without objection, 
members of the full Financial Services Committee who are not 
members of the task force are authorized to participate in 
today's hearing.
    As a reminder, I ask all Members to keep themselves muted 
when they are not being recognized by the Chair. The staff has 
been instructed not to mute Members, except when a Member is 
not being recognized by the Chair and there is inadvertent 
background noise.
    Members are also reminded that they may participate in only 
one remote proceeding at a time. If you are participating 
today, please keep your camera on. And if you choose to attend 
a different remote proceeding, please turn your camera off.
    Today's hearing is entitled, ``I Am Who I Say I Am: 
Verifying Identity While Preserving Privacy in the Digital 
Age.''
    I now recognize myself for 4 minutes to give an opening 
statement.
    Today, we are here to explore how we can leverage the power 
of artificial intelligence (AI) to create a secure digital 
identity, and how we can leverage those capabilities with 
digital infrastructure, such as mobile ID, to make internet 
access safer, more available, and more equitable for all of us. 
Digital identification is a long-overdue and necessary tool for 
the U.S. economy to transition into the digital age, while 
preventing fraud, ensuring privacy, and improving equity.
    Especially since COVID, we find ourselves increasingly 
working, transacting, and interacting online. Hand-in-hand with 
that, identity theft is at an all-time high, with over 1.3 
million reports to the Federal Trade Commission (FTC) in 2020. 
A digital identity would provide Americans with a way to prove 
who they are online in a more secure manner. People could use 
it to sign up for government benefits, make a withdrawal from 
their bank, or to view their medical records, all with the risk 
of identity theft or fraud approaching zero. Reducing identity 
fraud would not only provide tremendous savings to individuals 
and consumers, but would also create massive savings for our 
government as well.
    However, it is important to get this right. We must ensure 
that a digital identity framework is established with the 
utmost emphasis on privacy and security. That is why I have 
introduced the Improving Digital Identity Act of 2021, a 
bipartisan measure to establish a government-wide approach to 
improving digital identity. This bill would establish a task 
force in the Executive Office of the President to develop 
secure methods for Federal, State, and local agencies to 
validate identity attributes, to protect the privacy and 
security of individuals, and to support reliable, interoperable 
digital identity verification in both the public and private 
sectors.
    This is the first step to determine what our government 
needs in order to implement this crucial technology. Using the 
power of AI, we can detect suspicious activity, catch bad 
actors, and greatly improve our online validation and 
authentication process.
    I thank all of our Members and witnesses for being here 
today. And I look forward to this discussion to find out how we 
can best use artificial intelligence and digital identity to 
improve the lives of everyday Americans.
    The Chair now recognizes the ranking member of the task 
force, Mr. Gonzalez of Ohio, for 5 minutes for an opening 
statement.
    Mr. Gonzalez of Ohio. First off, thank you, Chairman 
Foster, for your leadership on this task force and for today's 
hearing and the witnesses. I want to commend all of your hard 
work on this issue, and for being a thoughtful leader in 
Congress on how to better protect the personally identifiable 
information (PII) of Americans across the country. I have 
enjoyed our dialogues on that, and I look forward to continuing 
them.
    Today's hearing provides an opportunity to hear directly 
from industry experts and stakeholders on advancements in 
improving the protection of Americans' personal identity. The 
task force had a similar hearing in 2019, and it is important 
that we continue to consider gaps that persist, and the proper 
role for the Federal Government, going forward.
    As a consumer, it often feels like you need to share every 
important detail of your personal identity in order to even 
think about creating an account with a financial institution or 
other internet service provider. Sharing your driver's license, 
Social Security number, sometimes your passport, and other 
sensitive information online can be intimidating and can make 
consumers question whether their information is safe and 
secure.
    And it is not hard to see why. Financial services firms 
fall victim to cybersecurity attacks approximately 300 times 
more frequently than other businesses. These breaches have 
occurred as bad actors have become even more sophisticated, and 
have amassed troves of data on American citizens. This, along 
with the wealth of data that Americans share daily via social 
media, has empowered criminals to take advantage of the current 
identity system which they then use to commit theft and fraud.
    To the credit of private industry, we have seen tremendous 
advances in technology to help secure Americans' private 
information and identity. The use of AI, machine learning, and 
blockchain technology has allowed for new forms of analysis 
that can verify an individual's identity in a secure way.
    Now, it is time for Congress to work with Federal 
regulators to ensure that the United States is equipped with 
the tools necessary to keep pace internationally. We should 
consider innovative proposals such as Mr. Foster's Improving 
Digital Identity Act, which will establish a task force within 
the Federal Government to engage with relevant stakeholders, 
but would also require the National Institute of Standards & 
Technology (NIST) to develop a framework of standards for the 
Federal Government to follow when providing services to support 
digital identity verification. I commend him and my other 
colleagues for their work on this thoughtful legislation.
    Beyond the obvious concerns regarding fraud and identity 
theft, I am also looking forward to learning more today about 
how other forms of identification verification can increase 
access to financial services and inclusion. This committee 
should champion new technologies and their ability to break 
down the barriers that prevent low-income Americans from 
accessing critical banking services. Digital identity 
technologies provide a lot of promise and an opportunity to 
further inclusion in our financial services space.
    I look forward to the discussion today, and I yield back.
    Chairman Foster. Thank you.
    Now, we welcome the testimony of our distinguished 
witnesses: Jeremy Grant, coordinator of The Better Identity 
Coalition; David Kelts, director of product development for GET 
Group North America; Louise Maynard-Atem, research lead at 
Women in Identity; Elizabeth Renieris, founding director of the 
Notre Dame-IBM Technology Ethics Lab at the University of Notre 
Dame; and Victor Fredung, chief executive officer of Shufti 
Pro.
    Witnesses are reminded that their oral testimony will be 
limited to 5 minutes. You should be able to see a timer on your 
screen that will indicate how much time you have left, and a 
chime will go off at the end of your time. I would ask that you 
be mindful of the time, and quickly wrap up your testimony when 
you hear the chime, so that we can be respectful of both the 
witnesses' and the task force members' time.
    And without objection, your written statements will be made 
a part of the record.
    I just want to also take this moment to really compliment 
you on the very high quality of your written testimony. It is 
worth reading more than once, because of the deep and important 
observations that it makes about where digital identity is, and 
should be going in our country.
    Mr. Grant, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

  STATEMENT OF JEREMY GRANT, COORDINATOR, THE BETTER IDENTITY 
                           COALITION

    Mr. Grant. Thank you.
    Chairman Foster, Ranking Member Gonzalez, and members of 
the task force, thank you for the opportunity to testify today.
    I am here on behalf of The Better Identity Coalition, an 
organization focused on bringing together leading firms from 
different sectors to work with policymakers to improve the way 
Americans establish, protect, and verify their identities when 
they are online. Our members include recognized leaders from 
financial services, health, technology, Fintech, payments, and 
security.
    Yesterday marked the 3-year anniversary of the release of 
our identity policy blueprint, which outlined a set of key 
initiatives the government should launch to improve identity 
that are both meaningful in impact and practical to implement. 
Our 24 members are united by a common recognition that the way 
we handle identity today in the U.S. is broken, and by a common 
desire to see both the public and private sectors each take 
steps to make identity systems work better.
    On that note, I am very grateful to the AI Task Force for 
calling this hearing today, as well as to Chairman Foster for 
his leadership on this topic. The legislation that he and 
Congressmen Katko, Langevin, and Loudermilk introduced 2 weeks 
ago, the Improving Digital Identity Act of 2021, is the single 
best way for government to begin to address the inadequacies of 
America's identity infrastructure.
    I think that one of the top takeaways for the members of 
this task force today is that identity is critical 
infrastructure and needs to be treated as such. The Department 
of Homeland Security (DHS) said as much in 2019, when it 
declared identity as one of 55 national critical functions, 
defined as those services so vital to the U.S. that their 
disruption, corruption, or dysfunction would have a 
debilitating effect on security.
    But compared to other critical functions, identity has 
gotten scant investment and attention, and the Improving 
Digital Identity Act, if approved, will get us started. And I 
think we are overdue to get started. The enormity of the 
problems that was magnified several times over the last 18 
months, amidst the pandemic, literally made it impossible to 
engage in most in-person transactions. The pandemic laid bare 
the inadequacies of our digital identity infrastructure, 
enabling cybercriminals to steal billions of dollars, and 
creating major barriers for Americans trying to obtain critical 
benefits and services.
    More than $63 billion was stolen from State unemployment 
insurance programs by cybercriminals exploiting weak ID 
verification systems, according to the Labor Department. On the 
flip side, we have seen hundreds of stories of Americans who 
have been unable to get the benefits they desperately need 
because their applications for unemployment had been falsely 
flagged for fraud when they find themselves unable to 
successfully navigate the convoluted and complicated processes 
many States have put in place to verify identity.
    Beyond unemployment, the inadequacy of our identity 
infrastructure remains a major challenge in financial services. 
Last year, the Financial Crimes Enforcement Network (FinCEN) 
reported that banks were losing more than $1 billion each month 
due to identity-related cybercrime. Meanwhile, millions of 
Americans can't get a bank account because they don't have the 
foundational identity documents needed to prove who they are. 
And amidst all of this, ID theft losses soared by 42 percent 
last year.
    So, why are there so many problems here? Well, attackers 
have caught up with a lot of the first-generation tools we have 
used to protect and verify and authenticate identity. And while 
this last year might have driven this point home, the reality 
is that these tools have been vulnerable for quite some time.
    There are a lot of reasons for this, but the most important 
question is, what should government and industry do about it 
now? If there is one message that the task force should take 
away from today's hearing, it is that industry said they can't 
solve this alone. We are at a juncture where the government 
will need to step up and play a bigger role to help address 
critical vulnerabilities in our digital identity fabric, and 
passing the Improving Digital Identity Act is where we should 
start.
    Why is government action needed here? Well, as one of our 
members noted, the title of this hearing, ``I Am Who I Say I 
Am,'' is technically incorrect, since for all purposes, when it 
comes to identity, you are who the government says you are. At 
the end of the day, government is the only authoritative issuer 
of identity in the U.S., but identity systems that the 
government administers are largely stuck in the paper world, 
whereas commerce has increasingly moved online.
    This idea of an identity gap, a complete absence of 
credentials built to support digital transactions, is being 
actively exploited by adversaries to steal identities, money, 
and sensitive data, and defraud consumers, governments, and 
businesses alike. And while industry has come up with some 
decent tools to try to get around this identity gap, the 
adversaries have caught up with many of them.
    Going forward, the government will need to take a more 
active role in working with industry to deliver next-generation 
remote-ID proofing solutions. This is not about a national ID. 
We don't recommend that one be created. We already have a 
number of nationally-recognized authoritative government 
identity systems: the driver's license; the passport; the 
Social Security number. But because of this identity gap, the 
systems are stuck in the paper world while commerce is moving 
online.
    To fix this, America's paper-based system should be 
modernized around a privacy-protecting, consumer-centric model 
that allows consumers to ask an agency that issued a credential 
to stand behind it in the online world, by validating the 
information from the credential. It is exactly what the 
Improving Digital Identity Act would do in a way that sets a 
high bar for privacy, security, and inclusivity.
    Thank you for the opportunity to testify today. Note that I 
have submitted lengthier testimony for the record, including 
some recommendations on AI and identity. I look forward to 
answering your questions.
    [The prepared statement of Mr. Grant can be found on page 
45 of the appendix.]
    Chairman Foster. Thank you, Mr. Grant.
    Mr. Kelts, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

STATEMENT OF DAVID KELTS, DIRECTOR OF PRODUCT DEVELOPMENT, GET 
                      GROUP NORTH AMERICA

    Mr. Kelts. Thank you, Chairman Foster, Ranking Member 
Gonzalez, and members of the task force. I appreciate the 
opportunity today.
    I am David Kelts of Arlington, Massachusetts, representing 
myself in support of mobile driver's licenses and forming 
governance for an identity ecosystem that reinforces American 
values of privacy, equity, and freedom, while spurring 
innovation.
    I am the director for product development for GET Group 
North America, which is piloting the Utah mobile driver's 
license currently, and I have been a member for over 5 years of 
the ISO standards working group that wrote the ISO 18013-5 
mobile driver's license standard. I lead the Evangelism Task 
Force for that group, and I was the lead author on privacy 
assessment with many international collaborators.
    A mobile driver's license (mDL) is a digitally-signed ID 
document placed on the mobile phone of the correct individual 
for them to control. Government issuers around the globe are 
the signers of the identity information, and this signature 
allows for using an mDL when government-issued ID information 
is legally required, including for in-person transactions.
    You don't show your mDL to someone else. Imagine if we were 
showing credit card numbers to merchants from our phones. 
Screenshots and editing tools would result in fraud. Instead, 
you tap or scan and share a token with the verifier or a 
reader, and that token can be used to request a subset of the 
mDL data. The mDL holder has full consent over what they share, 
and with this standard, people can use the mobile driver's 
license around the country, and around the globe. So, this 
minimizing of data to that which is necessary for the 
transaction represents an improvement over physical cards, 
where the full data is always printed on the front and found in 
the barcode on the back.
    The ISO 18013-5 mDLs are for fronted data transfer for in-
person usage. They are designed, the standard is designed to 
fit next to other identity standards like OpenID Connect, and 
things like user authentication from the FIDO Alliance.
    There are challenges to empowering Americans with this 
mobile ID document in order for us to meet the values and goals 
of all of the people--protecting identity information, giving 
greater control and flexibility to the rightful holder of the 
identity, supporting accuracy of these operations--and these 
come with the goals of improved privacy and inclusivity and 
access for all. These goals for mDL in person are the same as 
the goals for identity in cyberspace.
    mDL itself sort of naturally forms an ecosystem. The 
government issuers are the signers of the data, so they have a 
passive role in lending trust to the transaction. This is in 
the form of a public key used to validate the accuracy, 
integrity, and provenance of the data. The technology works 
today, and is functional, but government issuers must make the 
first move. This sets challenges in funding a digital 
transformation that benefits the residents and businesses 
within anya State. Doing the civic good is not always enough 
rationale.
    Consumer Pays models seem to be taking hold similar to our 
ID cards but they can require legislative approval and support 
for this digital transformation at the State level and can keep 
privacy and American values at the forefront, and kick-start 
contactless ID.
    Market forces alone will not shape an identity-equal system 
that meets our values and goals. Price pressure on software 
towards free has been driven by these privacy-invasive data-
gathering advertising policies. If the software is free, then 
you are the product. And kick-starting market forces, if they 
don't happen, it is possible that entities with very deep 
pockets can swoop in, meet the market needs, and own an 
identity ecosystem.
    Challenges exist on the business side as well as on the 
verifier side. Businesses and government agencies will wait for 
a large number of mDL holders before investing and accepting 
these digital ID documents. That can leave people with no place 
to use their digital ID.
    Across the globe, there are government-led trust frameworks 
like Australia, privately-led frameworks like Sovrin, and 
public-private partnerships like the Pan-Canadian Trust 
Framework in Canada, launched by the Digital ID & 
Authentication Council of Canada (DIACC).
    I recommend initiating a public-private partnership to 
define a framework that meets our values and goals from the 
existing pieces, and that can enforce those requirements. This 
can kick-start identity solutions of many types to meet our 
goals in the digital transformation. Federal agencies can 
continue to lead and lend their expertise to this, and can be 
incentivized to accept mobile driver's licenses for things like 
TSA agents to protect their health.
    DHS innovation programs can be refocused from architectural 
goals to deployment of contactless ID technology. And we 
welcome the continued and expanded participation of the Federal 
Government and Federal agencies.
    Thank you.
    [The prepared statement of Mr. Kelts can be found on page 
67 of the appendix.]
    Chairman Foster. Dr. Maynard-Atem, you are now recognized 
for 5 minutes to give an oral presentation of your testimony.

   STATEMENT OF LOUISE MAYNARD-ATEM, RESEARCH LEAD, WOMEN IN 
                            IDENTITY

    Ms. Maynard-Atem. Good afternoon, and thank you, Chairman 
Foster, Ranking Member Gonzalez, and members of the task force 
for the opportunity to testify today.
    My name is Louise Maynard-Atem. I am the research lead for 
the nonprofit organization, Women in Identity. We are an 
organization whose mission is to ensure that digital identity 
solutions are designed and built for the diverse communities 
that they are intended to serve in mind. We are a volunteer-led 
organization, and we all work full-time in the digital identity 
sector. We are entirely independent, and not acting in the 
interests of any one organization or individual, but we are all 
united by the belief that we need identity systems that work 
for everyone by ensuring that they are inclusive and free from 
bias, and that is the specific topic I would like to talk about 
today.
    The need for improved digital identity systems and 
infrastructure has been a pressing requirement for many years 
as more businesses have moved their operations online. The 
pandemic has accelerated that transition, and the need has 
become more critical in the last 18 months.
    The shift presents us with a unique opportunity to enable 
economic and societal value creation as digital identity 
systems become the gatekeeper to services like online banking, 
e-commerce, and insurance. However, we also need to recognize 
that the use of technology in these systems has the potential 
to further entrench and potentially exacerbate the exclusionary 
and bias practices that persist in society today.
    Simply digitizing what were previously analogue processes 
and utilizing flawed data would be a missed opportunity to 
deliver systems and services that benefit all citizens.
    At Women in Identity, we believe inclusion doesn't just 
happen on its own. For identity systems to be inclusive and 
free from bias, the requirement must be explicitly mandated. 
There are countless examples of where exclusion and bias 
haven't been explicitly mandated against, and in many of those 
instances, systems have been built that exclude certain groups, 
often based on characteristics like race, gender, culture, 
socioeconomic background, or disability.
    According to recent population stats in the United States, 
approximately 11 percent of adults don't have government-issued 
ID documents, approximately 18 percent of adults don't use a 
smartphone, and 5.4 percent of U.S. households are unbanked.
    Government-issued IDs, ownership of smartphones, and having 
a bank account can often be the building blocks used for 
creating digital identity services for individuals. It is 
essential that any solution that we develop has to be 
accessible for all of the groups that I have mentioned, and 
doesn't cause them to be further excluded from opportunities 
that such technology might present.
    If you think about the physical world, we would never erect 
buildings that weren't accessible to all. Features like 
wheelchair ramps are mandated. We need to make sure that we are 
mandating the equivalent accessibility in the digital world.
    Within Women in Identity, we have seen a move towards 
identity trust frameworks being developed, where the need for 
inclusion and testing for bias is being explicitly called out.
    Here in the UK, I wanted to mention the UK digital identity 
and attributes trust framework that Women in Identity was 
involved in consulting on. This framework sets out the 
requirements to help organizations understand what a good 
identity verification looks like. There are explicit callouts 
that make sure products and services are exclusive and 
acceptable, and organizations are required to complete an 
annual exclusion report to transparently explain if certain 
users or user groups are excluded and why.
    The Information Commissioner in the UK has responded in 
support of the trust framework, but raises caution if digital 
identity and attributes systems are relying on automated 
processing, due to the use of algorithms or artificial 
intelligence within those systems. Automated decision-making 
may have discriminatory effects due to bias present in the 
system design, the algorithms used, or the data sets used in 
the creation of the product or service.
    At Women in Identity, we are currently carrying out a piece 
of research that seeks to understand the societal and economic 
impact of exclusion in the context of digital identity, and 
specifically within financial services.
    We hope this research will inform the creation of a code of 
conduct designed to help solution providers identify and 
mitigate potential areas of bias and inclusion in product 
design to ensure that the industry is building products that 
work for everybody, not just the select few.
    To conclude, we believe that in order to achieve the full 
potential of digital identity systems, inclusion requirements 
must be specifically and explicitly mandated for within any 
regulation or legislation, and also, that they must be measured 
on an ongoing basis. There are a number of examples within my 
written testimony where I describe how this is being done 
elsewhere, and I strongly believe in the benefit of sharing 
best practices and lessons learned with other industry bodies 
and consumer advocacy groups to ensure that we are delivering 
systems that enable all citizens equally.
    Thank you very much for your time, and I look forward to 
your questions.
    [The prepared statement of Dr. Maynard-Atem can be found on 
page 80 of the appendix.]
    Chairman Foster. Thank you, Dr. Maynard-Atem.
    Professor Renieris, you are now recognized for 5 minutes to 
give an oral presentation of your testimony.

STATEMENT OF ELIZABETH M. RENIERIS, PROFESSOR OF THE PRACTICE & 
   FOUNDING DIRECTOR, NOTRE DAME-IBM TECHNOLOGY ETHICS LAB, 
                    UNIVERSITY OF NOTRE DAME

    Ms. Renieris. Thank you, Chairman Foster, Ranking Member 
Gonzalez, and members of the task force for the opportunity to 
testify before you.
    My name is Elizabeth Renieris. I am a professor of the 
practice and founding director of the Notre Dame-IBM Technology 
Ethics Lab at the University of Notre Dame, a technology and 
human rights fellow at the Harvard Kennedy School, and a fellow 
at Stanford's Digital Civil Society Lab. My research is focused 
on cross-border data governance frameworks and the ethical and 
human rights implications of digital identity systems, 
artificial intelligence, and blockchain and distributed ledger 
technologies.
    I am testifying in my personal capacity, and my views do 
not necessarily reflect those of any organizations with which I 
am affiliated.
    I began my legal career as an attorney, working on 
cybersecurity policy at the Department of Homeland Security, 
and went on to practice as a data protection and privacy lawyer 
on 3 continents. As a consultant, I have had the opportunity to 
advise the World Bank, the UK Parliament, the European 
Commission, and others on data protection, blockchain, AI, and 
digital identity, and I am grateful for the opportunity to 
participate in this hearing on this important topic today.
    As laid bare by the COVID-19 pandemic, we increasingly 
depend on digital tools and services for work, school, 
healthcare, banking, government services, and nearly all 
aspects of our lives. And unlike when we interact or transact 
in person, we have limited visibility into who or what is on 
the other end of a digital interaction or transaction.
    Even before the pandemic, vulnerabilities in digital 
identity systems contributed to a tax on our energy supply, 
hospitals, financial institutions, and other critical 
infrastructure. As these sectors are digitized, automated, and 
algorithmically and computationally manipulated, they 
increasingly depend on a secure digital identity. As we evolve 
into a world with the internet in everything, with all manner 
of internet of things (IoT) devices, sensors, network 
technologies, and other connected systems, the digital is 
becoming the built environment. Without secure, reliable, and 
trustworthy digital identity for people, entities, and things, 
this new cyber-physical reality is increasingly vulnerable to 
attacks, threatening individual safety and national security.
    Digital identity is becoming critical infrastructure. As 
dominant technology companies pursue new revenue streams of 
healthcare, education, financial services, and more, privately 
owned and operated ID systems with profit-maximizing business 
models may threaten the privacy, security, and other 
fundamental rights of individuals and communities. Often, they 
also incorporate new and advanced technologies such as AI, 
machine learning, blockchain, and advanced biometrics that are 
not well-understood and not subject to sufficiently clear legal 
or governance frameworks.
    In order to engender trust, safety, and security with 
digital ecosystems, we need trustworthy, safe, and security 
digital identity. And in order to engender trust, safety, and 
security in our society, we need to deploy it ethically and 
responsibly.
    Recognizing the growing importance of digital identity as 
critical infrastructure, and seeking to reign in the private 
control over it, governments in the European Union, Canada, New 
Zealand, and elsewhere are prioritizing efforts to design and 
build the infrastructure needed to support robust digital 
identity.
    For example, the European Commission is working on a 
universally-accepted public electronic identity, or eID, 
including as an alternative to privacy-invasive solutions such 
as log-in with Facebook or Google. Even as we have hundreds of 
frameworks for ethical AI, we lack any specific to digital 
identity. To remain competitive globally, avoid enclosure of 
the public sphere through privatized identity schemes, and 
protect the civil and human rights of Americans, the Federal 
Government must take the lead in shaping the technical, 
commercial, legal, and ethical standards for the design, 
development, and deployment of these systems as critical 
infrastructure. And the Improving Digital Identity Act is a 
good first step in that direction.
    Such standards must not only include best practices with 
respect to the privacy and security of data, but also measures 
for fairness, transparency, and accountability on the part of 
entities designing and deploying the technology, strong 
enforcement and oversight, and adequate remedies of redress for 
the people impacted.
    They must also address power asymmetries, the risks of 
exclusion and discrimination, and the specific challenges 
associated with the use of blockchain, AI, and other emerging 
technologies. We must avoid building digital ID systems and 
infrastructure in a way that would further expand and entrench 
the surveillance state, as do the national identity systems in 
India or China.
    When we move through the physical world today, we are 
rarely asked to identify ourselves. But as everything 
increasingly has a digital component, and as the market for 
digital ID grows, we are at risk of flipping that paradigm. To 
avoid the erosion of privacy through persistent and ubiquitous 
identification, we will also need guardrails around the use of 
these systems, including when and why identity can be required. 
If we are not careful, we might go from identity as the 
exception to identity as the rule.
    To summarize my recommendations for Congress, we must 
recognize that digital identity is critical infrastructure. The 
Federal Government must lead to create standards for safe, 
secure, and trustworthy ID. Those standards must address 
specific challenges associated with new and emerging 
technologies and ensure public option. And, finally, we need 
guardrails around the use of ID to avoid ID becoming an enabler 
of surveillance and control.
    Thank you again for the opportunity. I look forward to your 
questions.
    [The prepared statement of Professor Renieris can be found 
on page 85 of the appendix,]
    Chairman Foster. Thank you, Professor. And your timing was 
accurate to the second. So, my compliments on that as well.
    Mr. Fredung, you are now recognized for 5 minutes to give 
an oral presentation of your testimony.

 STATEMENT OF VICTOR FREDUNG, CHIEF EXECUTIVE OFFICER, SHUFTI 
                              PRO

    Mr. Fredung. Thank you, Chairman Foster, Ranking Member 
Gonzalez, and distinguished members of the task force. I am 
excited to be here, and thank you for inviting me to testify 
before you today on this very important topic.
    My name is Victor Fredung, and I am the cofounder and CEO 
of Shufti Pro. Shufti Pro is an identification and compliance 
platform that provides services to government agencies and 
companies throughout the world.
    Our service is primarily focused on identification, or what 
is more commonly referred to as Know Your Customer (KYC), and 
relies on using automated technology such as artificial 
intelligence and machine learning, and has successfully been 
used by companies from all corners of the world to not only 
verify customers' ID documents, but also verify that the 
customer is truly who they say they are.
    When it comes to identification, most clients utilize our 
services that combine document verification, face verification, 
liner check, and optical character recognition, to give 
accuracy above 99 percent, and to give businesses the assurance 
that they are taking the appropriate steps to verify their 
customers.
    In addition, we offer what we refer to as a configurable 
approach to verification flow, and by, ``configurable,'' we 
mean that we allow the clients to fill out their own 
verification services and decide on a setting as to how a 
particular verification should be performed. This is crucial 
for businesses to comply with different regulatory requirements 
and configurations that look different throughout the world.
    I think we can all agree that the timing of this particular 
subject is entirely in line. During the pandemic, we witnessed 
the world turning towards digitalization and relying more and 
more on the use of the internet for everyday tasks. The 
problem, however, was that all were not equally competitive.
    I would like to discuss a couple of topics with you today, 
the first involving how AI can help enhance verification of 
customers. To give you background, we started our journey back 
in 2017, when most businesses relied on using either a hybrid 
or a manual approach to verifying customers. A hybrid approach 
includes, for the most part, a physical person taking a look at 
an ID document and a selfie to verify if it was the person or 
not.
    The problem with this approach is that, first, it is not 
scalable. Second, it is also very time-consuming, and then 
costly for the client using the service. So what we did was 
begin by using artificial intelligence and machine learning to 
help protect security interests that can be found on different 
ID documents, for example, microprinting, sonograms, or even 
the placement of the text.
    We also saw that some customers might try to tamper with 
portions of the document, perhaps changing their date of birth 
or their nationality. So, we developed our anti-spoofing 
technology that also combines text detection, hologram 
verification, and line effect to accurately verify the customer 
is who they say they are and that they aren't trying to fake 
their identity. And by experimenting with the usage of 
automated technology, we not only saw that verifications could 
be processed at a much faster pace, we also saw that capturing 
the identity increased significantly since sophisticated forces 
can change security features that would bypass you and I.
    The second topic I would like to address today is in regard 
to data privacy and how end users can feel secure when 
providing their identity. As we all know, data breaches happen 
to some of the world's biggest companies, and it is usually not 
the business that suffers the most, it is the end users who get 
their identities compromised. There are, however, different 
ways to try and solve this, for example, by utilizing on-device 
verifications when not only the data is transmitted elsewhere. 
Another example would be that the providers for the clients do 
not store any sensitive data involved with the customers. They 
simply have a specific confirmation that the customer was 
successfully verified by the appropriate standards and, after 
that, all of the data is erased. Here it is unfortunately 
usually a problem, since most frameworks require the data to be 
kept for X amount of years.
    There are also ongoing discussions and experiments as to 
how to name the blockchain as part of the data sharing, as well 
as the storage of the customers' data, and how to allow 
customers to reuse already-proven identities. This is, however, 
in prototype status at the moment, but it's definitely 
something to develop in the future.
    The last topic I would like to mention is our research into 
the many different kinds of identity frameworks and the 
documents that can be combined from across the world. Using the 
United States as an example, we see different requirements and 
obligations from different sectors, in addition to each State 
having its own unique set of ID documents. They do not yet 
follow the universal framework when it comes to the security 
features on the documents. This issue presents a problem for a 
lot of companies, not only in the United States, but all over 
the world, where requirements, documents, and settings 
differentiate and no universal framework is applicable.
    We strongly applaud the REAL ID Act and the minimum 
security standards it establishes, and will strongly suggest 
continued pursuit of a universal framework that each State 
needs to follow when it comes to the selection of ID documents, 
and the unified requirement when it comes to what information 
needs to be verified and how verification should be performed 
in those States.
    I also support Chairman Foster's and Congressman 
Loudermilk's Improving Digital Identity Act and its purpose of 
modernizing the ID infrastructure.
    Thank you for inviting me to testify today, and I look 
forward to your questions.
    [The prepared statement of Mr. Fredung can be found on page 
36 of the appendix.]
    Chairman Foster. Thank you.
    And I will now recognize myself for 5 minutes for 
questions.
    Just to give an initial idea of what scope of improvement 
we might be able to see if we have widespread use of high-
quality mobile ID, if you look at the large, high-profile hacks 
that have happened, that have hit the headlines, the Colonial 
Pipeline, the DCCC hack of a few years back, what fraction of 
these would be largely eliminated if we had widespread use of a 
mobile ID second-factor authentication instead of just 
passwords?
    Mr. Grant. I am happy to jump in, if I can.
    I think it is an anomaly these days when a major incident 
happens and identity is not the attack vector, although I want 
to just differentiate--when we talk identity, to me, we are 
talking about two things: identity proofing, what you are doing 
when you are opening an account; and authentication, how you 
log in after you have already opened an account.
    I think a lot of the fraud we have seen in unemployment 
systems has been taking advantage of the identity proofing 
challenge. How do you prove you are really Bill Foster for the 
first time, and which Bill Foster, given that there are 
probably several thousand of you? There, we basically saw 
stolen data used to cut through whatever protections a lot of 
States had in place, or in some cases, they had none at all, to 
steal billions of dollars.
    With regard to some of the other breaches that we have 
seen, Colonial Pipeline, some things with ransomware, there it 
is much more focused on authentication, how you compromise a 
password, or even, in some cases, compromise some first-
generation forms of multifactor authentication, like ones that 
are based on a code that is texted to you that is now phishable 
as well.
    I think, overall, with both identity proofing and 
authentication, we have big problems. If we could close both of 
those gaps, you really start to raise the cost of the tax for a 
lot of criminals and make it much harder for them to do the 
things that they have been doing.
    Chairman Foster. Okay. One of the things that I think many 
of you have mentioned in your testimony was how COVID has sort 
of changed the profile of identity and the need, the fact that 
we are moving more and more online. It is becoming more 
important.
    The other thing that has happened is that there is real 
bipartisan agreement that we have to get a broadband connection 
to essentially all Americans, and that there is a real Federal 
role in subsidizing that. I think that at last count, the 
Republican talking number was $65 billion that should be 
dedicated to this. The Democrat counteroffer was $100 billion. 
But if we end up anywhere in between those two numbers, we are 
going to have a real step forward in closing the digital divide 
and getting at least a low-end digital device in the hands of 
all Americans and a broadband account.
    And so, given that, how would you then piggyback products, 
for example, digital driver's licenses or other ways? How do we 
get this, so that it is the second part of provisioning a 
broadband and digital identity to people? Anyone who wishes to 
answer that.
    Mr. Kelts. Yes, I think that access to broadband, that 
access to connectivity and phones will help to increase 
accessibility to everyone, and I would say, to the same level 
of accessibility as getting an ID card that you currently have, 
and being able to use that.
    The technology in mDL, I will speak specifically about 
that, is geared to use on really any phone, because there are 
multiple ways that you can interact with that for in-person, 
and we expect we can cover the vast majority of phones that are 
out there, provided they have either a screen or NFC or 
something that allows for the transmission. So, I think that 
would be a huge step towards accessibility for everyone on 
mobile identities.
    Chairman Foster. And when we do this, how do we make sure 
that the equity issues are addressed properly? Why don't we let 
the Ph.D. material scientists weigh in on this. They seem to be 
very interested and involved in this set of issues.
    Ms. Maynard-Atem. I think as soon as you start to drive 
access for everybody, then there are lots of solutions you can 
put in place. If we are establishing a baseline of, everyone 
has access to some kind of device, then I think that really 
levels the playing field. It is not saying, everyone needs to 
have a smartphone. It is just saying, everyone needs to have 
access to something. I think that is a big hurdle.
    Certainly in the UK, we are going at it from a vouching 
standpoint. So if you don't have access, you can say someone 
says, ``you are you,'' and we can take that as standard. But if 
there is an ability to provide everybody with some kind of 
technology so that they can use these services, then I think 
that really moves the accessibility debate really far forward.
    Chairman Foster. And you mentioned, I think, in your 
testimony, the eID effort in the EU. Is that correct?
    Oops, I am out of time here. Okay.
    Let's see. For Members who are interested, if there is 
time, we are probably going to be able to have time for a 
second round. And if that fails, we will continue our tradition 
of, at the end of the formal part of the hearing, I will gavel 
it closed, and we can just sit around and talk, sort of the 
Zoom equivalent of just hanging around in the anteroom and 
talking with our witnesses, which is often the most valuable 
part of a hearing.
    I will now recognize the ranking member of the task force, 
Mr. Gonzalez of Ohio, for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Mr. Chairman, for holding 
this hearing and for our great witnesses here today.
    Before I get started, I ask for unanimous consent to add to 
the record a letter from the National Association of 
Convenience Stores, please.
    Chairman Foster. Without objection, it is so ordered.
    Mr. Gonzalez of Ohio. Thank you.
    Mr. Grant, I want to start with you. It is good to see you, 
and I look forward to reconnecting down the road.
    As we were talking yesterday a bit offline, I told you I am 
excited to support Chairman Foster's Improving Digital Identity 
Act. I think it is a step in the right direction for sure.
    My question is, beyond the Improving Digital Identity Act, 
what additional areas should this committee be focused on from 
a legislative standpoint, with respect to digital ID?
    Mr. Grant. Thank you for the question, Congressman. It's 
good to see you again.
    I would say the Foster bill is a great place to start in 
that it finally starts to pull together what I would call a 
whole-of-government approach to looking at this issue. And one 
of the challenges I think we have in the U.S. is that we have 
nationally-recognized authoritative identity systems, but they 
are split between the Federal, State, and local levels. I got 
my birth certificate from the county I was born in. The State 
DMV gives me my driver's license. And I have a passport from 
the U.S. State Department.
    And what is great about that bill is it starts to take a 
look at, how do you take a consistent standards-based approach 
so that any American could ask any of those entities to vouch 
for them when they are trying to prove who they are online? And 
as I mentioned in my opening statement, NIST also has set a 
high bar for security and privacy.
    I think the big question that is going to come beyond that 
is going to be how to fund some of that, particularly in the 
States where--I know that David Kelts talked a little about the 
work he is doing with mobile driver's licenses. I think there 
is a concern that while there is a handful of States doing 
things there now, if we are not going to actually invest 
dollars in trying to jump-start that activity in the States, 
that it might be, say, 15 years before we start to get to 
critical mass of people having some digital corollary to their 
paper documents, and that is going to be a real issue. And I 
think the infrastructure bill that is being negotiated, as 
Chairman Foster pointed out, could be a great place to put some 
money in to help accelerate that.
    I think beyond that, the more AI is going to be used, there 
are probably going to be more questions to be asked. And this 
task force is obviously going to be a great place to evaluate 
some of those considerations.
    Mr. Gonzalez of Ohio. Great.
    Ms. Renieris, same question for you. I am not sure if you 
are familiar with the legislation, but just areas beyond that 
it we should be considering at the committee level to foster 
greater adoption of digital ID.
    Ms. Renieris. Sure. Thank you for the question.
    I would say first on the legislation in particular, I would 
just like to point out one red flag that I am concerned about, 
which is a reliance on consumer consent. As we have been having 
conversations around State and Federal privacy legislation, I 
think there is growing awareness around some of the limitations 
on consent-based frameworks in this context. So, in going 
forward, it might be worth reconsidering sort of the basis for 
some of the personal data processing involved in these identity 
systems.
    Separate and apart from that, really I think a lot of this 
is the question of the underlying infrastructure in other 
sectors. For example, even if you had a really robust whole-of-
government approach, and created sufficient privacy and 
security technical standards through NIST or otherwise, you 
would still have a problem, for example, if our healthcare 
infrastructure can't ingest those standards or those 
technologies.
    So, we really have to think about other upgrades across the 
infrastructure in other sectors in order for digital ID to be 
woven in and layered on top.
    And I think the third thing is really something that has 
already been pointed out around mandating inclusion in the 
conversation. I think, as we have expressed in our testimonies, 
and as we have seen in the field, there can be a real lack of 
diversity in these conversations. And so in addition to the 
interagency kind of diversity, I think the diversity of 
expertise and voices at the table is really critical.
    Mr. Gonzalez of Ohio. Thank you.
    And then, Mr. Kelts, with the pilot program in Utah, what 
are you learning? And I am looking for sort of barriers, things 
that have been difficult, that this committee should have on 
our minds as that program has unfolded.
    Mr. Kelts. I think that the demands we have seen from 
consumers has been larger than expected, which has been great. 
We are very early in the pilot program and positioning people. 
That is a key thing. And as well, the demand from business, the 
ability for the State Government to engage businesses along the 
whole process right from the beginning of the RFP process, and 
to engage those stakeholders has been a huge advantage for 
making this work in Utah.
    Mr. Gonzalez of Ohio. Good. I see I am out of time.
    I yield back, Mr. Chairman.
    Chairman Foster. Thank you.
    The Chair will now recognize the Chair of the full 
Financial Services Committee, the gentlewoman from California, 
Chairwoman Waters, for 5 minutes of questions.
    Chairwoman Waters. Thank you very much. I am on now.
    First of all, Mr. Foster, I want to thank you for the 
attention that you have paid to this identification issue, and 
the work that you are doing that is so important.
    I would like to ask Dr. Maynard-Atem a question, and if 
this has been answered already, then I won't proceed with it 
and I can talk about it with you later on. It is about the use 
of artificial intelligence, of course, for individual 
identification that has raised concerns about algorithms of 
bias.
    As you know, smartphone authentication can employ voice or 
facial recognition technologies, but these technologies have 
been shown to exhibit bias against women and minorities. In 
fact, researchers have found that facial recognition 
technologies falsely identified Black and Asian faces 10 to 100 
times more than White ones, and falsely identified women more 
than they did men.
    Do you have any concerns that a digital identity system 
could also exhibit this kind of bias? If so, what steps need to 
be taken to eliminate this bias?
    Ms. Maynard-Atem. Absolutely. Thank you for that question.
    I think there is always the risk that if you are starting 
to introduce emerging technologies, emerged technologies like 
artificial intelligence and machine learning, you run the risk 
of bias creeping in, depending on the way that those systems 
have been built, and the data those systems have been tested 
upon. I think a lot of the issues arise from very homogenous 
test data being used to actually test these systems. So, when 
they are learning how to recognize faces, they are tested and 
trained on a very homogeneous data set which might be all male, 
it might be majority-male, or it might be a majority of people 
of one particular race.
    And I think the way that we sort of overcorrect for that is 
by ensuring that the data that we are using to build 
algorithms, to build these things that detect facial 
characteristics of men and women and races of all colors, to 
make sure that test data is as diverse as the population that 
the system is going to serve. We need to make sure that we are 
equally representing all genders and all races in all of that 
test data, so the algorithms actually learn to recognize 
everybody equally rather than situations we have had 
previously, where they have led specifically to recognize one 
person or one type of person at the detriment potentially of 
others.
    Chairwoman Waters. What you are describing is precisely 
what was discovered a long time ago with medicine and the lack 
of diversity in the testing that has not led to the ability to 
deal with some of the problems that we have found in minority 
communities, Black communities in particular. And so, you do 
think that this is an important part of moving forward with any 
identification, absolutely having the kind of diversity and the 
testing that will bring us the results that we need.
    I don't know if this is a good question or not, but I think 
we have improved the testing in medicine, and particularly with 
certain diseases where they had to work hard to get minorities 
in the testing programs. But do you know whether or not it is 
proven that this has really taken place with medicine, and that 
the corrections have been made, and they have been able to 
advance the pharmaceutical products based on the testing that 
was done, because they know what is needed in a particular 
minority group? Do you know anything about that?
    Ms. Maynard-Atem. I don't know specifically whether or not 
it has been proven that it has been done, but I think the key 
point here is that, like I said in my testimony, these things, 
inclusion, calling out bias, don't just happen on their own, 
and I think that they need to be mandated. I think we need to 
call out specifically in legislation that you have to test for 
these things. You have to test for bias, and you have to make 
sure that people are included, and you have to test that on an 
ongoing basis. This can't just be something that you do once 
and then put it on the shelf and never address again. You have 
to test. In the UK, it is proposed that it is being done on an 
annual basis for digital identity systems. We need to be 
testing and retesting to ensure that any bias that does exist 
in systems is called out, is explained, and then action plans 
are put in place to make sure that exclusionary technique or 
system doesn't then persist going forward.
    Chairwoman Waters. Thank you very much. I appreciate that 
information. And I will follow up with my colleague, Mr. 
Foster, and you, as we move forward with this whole issue. 
Thank you.
    I yield back the balance of my time.
    Chairman Foster. Thank you.
    The Chair will now recognize our colleague from North 
Carolina, Mr. Budd, for 5 minutes.
    Mr. Budd. I thank the Chair, and I also want to thank the 
witnesses for being here today. It is a very insightful 
hearing.
    Mr. Fredung, I want to direct my questions to you this 
morning in the brief time we have. With the continued growth in 
the expanding use of cryptocurrencies, we have seen an 
increased rollout by exchanges becoming compliant with anti-
money laundering. How are these Know Your Customer programs 
performing compared to traditional finance counterparts?
    Mr. Fredung. First of all, thank you, Congressman, for that 
question.
    As we all know, cryptocurrency is getting more and more use 
in the world, not only for investment opportunities but also 
for everyday tasks. When it comes to the legislation and 
capturing the criminals as well, we do see it happening with a 
few different changes here and there as well. Unfortunately, 
the problem we have seen in the space at this moment is there 
is not really too much legislation when it comes to 
cryptocurrency and changes.
    As an example, here in Europe we have the Stony licensing. 
We also have it in the United Kingdom, which has just started 
issuing different licenses where, if you selected a client, 
this is a problem we have seen in the space that there needs to 
be an easier way for different businesses that operate the 
cryptocurrency exchange to become licensed, and essentially 
offering customers to buy cryptocurrencies from them.
    I would like to bring up here as well that I do believe 
Shing (ph) analysis company spoke in one of the previous 
hearings as well where they also discussed, in other words, to 
the bad actors of the use in cryptocurrency. And I think they 
also mentioned it was a number of around 0.4 percent which is a 
decrease from previous years as well.
    But as the world is becoming more adapted towards 
cryptocurrency, I believe the technology providers are also 
facilitating the identification and verification of customers, 
and there are plenty of good tools available to help them 
protect against illegal crypto transactions, alongside a strict 
company process. So I would say most businesses pretty much 
have a good defense at the moment to be able to use the space.
    Mr. Budd. Very good. Thank you for that.
    So as technology continues to advance and as we look for 
new ways to identify consumers without jeopardizing their data, 
which is key, how could we utilize the blockchain as a tool for 
digital identity verification?
    And that will also be for you.
    Mr. Fredung. Usually, the blockchain for security purposes 
is very interesting, and as mentioned, definitely something to 
look out for in the future, and by enabling the usage of 
blockchain, it helps a lot of the issues which are key, such as 
unauthorized access to customer data, which is a secure way of 
transmitting user data, as well as having a better user 
experience as well. Yes, I think we can all understand that for 
a customer to set a goal for verification process over and over 
again, it is not really a user-seamless experience.
    In addition to the data privacy area, there are other 
approaches using blockchain as well. There could also be 
essentially using one device verification where normally the 
data is transmitted elsewhere as well.
    Mr. Budd. Financial institutions are subject to a patchwork 
of statements, data, security, and breach identification laws 
here in the U.S., State by State. So, in addition to Federal 
regulations that we saw in the Gramm-Leach-Bliley Act years 
ago, there is no Federal standard for data security for 
nonfinancial institutions that handle consumer data. What 
regulatory improvements would you suggest?
    And that is also for you.
    Mr. Fredung. When it comes to improvements in the 
regulatory frameworks, there are a few different selections 
that I would like to bring forward, the first one being a 
universal framework and requirements and security standards 
online.
    The second one would be an update to the existing ID 
documents issued by the States, by modernizing the security 
features located on documents, making it harder for fraudsters 
to try and tamper with information.
    Maybe, in addition, also requiring a line check to be 
performed. This is something that we do see, but it is not a 
requirement in all of the different frameworks that we come 
across. This is essentially a great tool to defend against the 
easier troll attempts.
    Apart from that, we do heavily conduct research in regard 
to these matters and we would be delighted to share that with 
the office that is requesting this as well.
    Mr. Budd. I really appreciate that.
    That is all of the questions I have. I appreciate your 
generosity with your time, and also the whole panel.
    I yield back to the Chair.
    Chairman Foster. Thank you.
    And the Chair will now recognize my colleague from 
Illinois, Mr. Casten, for 5 minutes.
    Mr. Casten. Thank you so much, and I really want to thank 
you for holding this hearing. You have been leading on this for 
a long time, Chairman Foster, and we wouldn't be doing this but 
for your leadership and, my goodness, it is obvious that we 
need to be doing this. So thank you.
    I want to direct my questions to Ms. Renieris. The first 
is, over the last couple of years, there has been talk of--I 
think both Google and Apple have talked about introducing a 
digital driver's license, a digitization of your driver's 
license on the mobile apps. Do you have any ethical concerns 
with, essentially, a private digital ID, supplanting a 
government-managed digital ID?
    Ms. Renieris. Thank you very much for the question, 
Congressman.
    This is an issue I alluded to in my testimony, and I go 
into more depth in my written testimony. What Apple and Google 
have basically done is created the digital wallet 
infrastructure to host a digitized version of your government-
issued driver's license, or your analogue physical ID at this 
point. It is quite telling that what they have created is not 
necessarily a digitally native ID, but, rather, a digital 
version of those artifacts that we are all used to, and I think 
that is an important distinction.
    It is true that they have very sophisticated capabilities 
now embedded into smartphones, including improved secure 
enclaves and other technologies, localized machine learning and 
data processing, that improve some of the data security and 
privacy aspects of the mobile digital wallet and the 
credentials stored therein.
    But there are serious ethical, and also privacy concerns I 
have going beyond the data itself. Specifically, I have 
concerns around incentives and business models. What we have 
seen over and over again is that a lot of the business models 
and sort of commercial incentives around the products and 
services provided by some of the companies you mentioned, 
including Apple and Google, are not necessarily business models 
that support civic interests and the values that we are really 
concerned about, and they actually very often cut against 
those.
    For example, with the Apple ID, we don't yet know exactly 
what the business model is. However, it is basically the same 
technology as Apple Pay, which we know has transaction fees 
associated with it for different players in the ecosystem. So, 
you can start to see how, depending on the business model and 
the commercial incentives, this could create perverse 
incentives for the use of ID, perhaps in contexts where it is 
not necessary or it didn't exist before.
    I also have concerns about the ease of use. The easier and 
sleeker these credentials are, it feels like it's not a big 
deal. We start to normalize things like biometrics. We start to 
normalize presenting our ID in contexts where perhaps it 
shouldn't be appropriate or required.
    So, I think there are concerns that go beyond the data. 
When we just think about the security and privacy of data, we 
lose sight of the security and privacy of people, and those are 
two very different things and the technology designing and 
building these systems has a very narrow definition of privacy, 
which is really a technical mathematical view of it.
    We have to sort of resituate identity in the context of 
this socio-technical system that it is, in the context of 
culture and law and economics and all of these other things to 
think about what the true impact will be on people, rather than 
looking at a specific tool or a specific technology.
    Mr. Casten. Thank you for that. This is a question that 
obviously gets beyond digital ID and, of course, spans every 
committee in Congress, but because we are on the Financial 
Services Committee, we spend a lot of time and we have crafted 
a lot of regulations around, what happens if I give my money to 
someone who is a custodian of that money, and we have developed 
fiduciary rules of looking out for the best interests of that 
money, and arguably our data is a link to our money and a lot 
more, as you point out. There have been some people who have 
talked about, should we create a fiduciary rule that applies to 
people who hold our data?
    I am curious if you have heard any of those proposals, if 
you are familiar with them, and if you have any thoughts on 
that as a possible way through some of this morass. Should the 
private sector get ahead of us? Because once people turn the 
data over, you can't put the genie back in the bottle, I don't 
think. So, your thoughts on a fiduciary rule for data?
    Ms. Renieris. I think that certain fiduciary duties of 
confidentiality and loyalties and others associated with 
entities for processing and restoring data can make sense. I 
think it is sort of a small piece of a much more comprehensive 
approach that we need. Obviously, it's an approach that, at the 
moment, is very disjointed across State and Federal proposals.
    I do think that we need to think about what is the 
underlying and legal infrastructure that we have in terms of 
privacy and data security and data protection. But, again, 
those are just sort of one piece of a more comprehensive 
framework that we need. We may also need to think about 
identity-specific data-related government frameworks, for 
example, the culmination of data privacy and digital identity 
infrastructure and pointing out kind of areas where those 
frameworks overlap and where they diverge and try to reconcile 
them. But they are a big piece of this.
    Mr. Casten. Thank you so much, and I yield back.
    Chairman Foster. Thank you. And we will now recognize our 
colleague from Texas, Mr. Taylor, for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate this 
hearing. I think this is an important topic. Mr. Grant, in your 
written testimony, you mentioned theft from unemployment 
programs. I have talked to some of my colleagues who were 
pretty mortified by the billions and billions of dollars that 
were stolen because of unfortunate loopholes in the 
administration of those programs. And I realize that digital ID 
is a component of fighting against that fraud. How do you see 
AI working with existing frameworks on a way to combat fraud in 
unemployment insurance?
    Mr. Grant. I think the way I look at it, there is both a--
how would I say it? When I look at solving identity, identity 
is one part of broader fraud reduction and handling risk there. 
And I think solving this issue presents a couple of different 
dimensions where, even outside of the things that you might be 
doing on identity for verification, you might have AI, running 
broader fraud prevention systems, to be looking at some 
different signals.
    Now, I will say, my take is probably two-thirds to three 
quarters of those are going to be identity-related in terms of, 
are you able to, say, sniff out how somebody is potentially 
using stolen data, or see something about the device they are 
logging in on that is exhibiting signs that might be about 
entering the data rather than an individual? I think a lot of 
it is going to come to identity at the end of day. But there is 
certainly, I think, broader places we are seeing a lot of these 
same companies in this space look at things that touch other 
elements beyond individual identity.
    Mr. Taylor. And just to my colleagues, I will be trying to 
work on getting AI language into some of the appropriations to 
try and prevent fraud. I think that is something that we should 
begin to look at and start to think about. And, obviously, 
being the AI Task Force, it is a germane topically to what we 
do.
    Shifting over, Professor Renieris, just to ask you a 
question about identity technology gone wrong, and obviously, I 
think it is really important, what Chairman Foster said at the 
beginning is that we want to have an identity system which 
really is consistent with our values as Americans: protecting 
identity; and protecting information.
    I kind of think about China and how the Chinese Communist 
Party's control of digital payments is able to control people's 
movements, and to stop people who are not in favor of the 
Chinese Communist Party from being able to buy a plane ticket, 
and if they are really not in favor, not even to buy a train 
ticket, or ride a bus.
    And so, I am thinking about the technology, in my mind, 
being abused to really suppress people in a way that is 
Orwellian. Can you give us examples of other ways that identity 
technology has gone wrong, not necessarily in this country, but 
in other countries?
    Ms. Renieris. Thank you for the question, Congressman. 
There are many examples. I think one of the most important 
things to point out is that in a lot of other countries, the 
digital identity systems are basically mandated national ID 
schemes that are tied to civil registration and vital 
statistics. So, if you can't obtain a digital identity in those 
countries, you are effectively locked out of life. There is 
basically nothing you can do, and you don't exist. And so, I 
think that is the broad-level risk.
    The second layer of that is that in a lot of countries, 
what we have seen with digital ID schemes gone wrong, is they 
tried to integrate--they basically used a single identifier, 
for example, the Aadhaar number in India. And that single 
identifier is able to track your activity across all facets of 
your life, from employment, to healthcare, school, and pretty 
much everything you do. So, that is another area where you 
can't retain sort of autonomy over specific domains of your 
life, for example, you can't separate your personal and 
professional reputation. And you can't have this kind of 
contextualized personal identity. So, I think that is also 
really problematic. It is also problematic from the standpoint 
of data security. If it can compromise your number, you have 
concerns around that.
    I think going back to the point about inclusion, a lot of 
these systems were designed without thinking outside of the 
technology. So, for example, there are countries where women 
are disproportionately less connected and don't have access to 
things like mobile devices. And in those countries where 
digital identity is now through a mobile device, they are 
basically at the mercy of a partner or someone else to exist 
and to operate in that country.
    Again, a reason to look beyond mutual privacy and security 
of data and the specific parameters of the technology and think 
about how they operate in a national context. I go into more 
detail in my written testimony.
    Mr. Taylor. Thank you for that answer.
    Mr. Chairman, I yield back.
    Chairman Foster. Thank you. The Chair now recognizes our 
colleague from North Carolina, Ms. Adams, for 5 minutes.
    Ms. Adams. Thank you very much, Chairman Foster, Ranking 
Member Gonzalez, and also Chairwoman Waters for holding this 
hearing. And to the witnesses, thank you for your testimony as 
well.
    Bias in AI algorithms is a common and widespread concern as 
the technology has become more entrenched in our daily lives. 
And I recall distinctly a few years back, when facial 
recognition software falsely identified my late Congressional 
Black Caucus colleague, John Lewis, as a criminal. This very 
real problem that biased AI is having real-world impacts does 
deserve our scrutiny. So, I am glad that we are having these 
discussions.
    And that is why I fought successfully to include language 
in our annual appropriations package that asks the National 
Science Foundation to partner with NGOs and academic 
institutions to study algorithmic bias more intently.
    Professor Renieris, in your testimony, you noted that 
mistakes in AI ID verification can have significant 
consequences. So, how can we stop the digital identity process 
from becoming overly reliant on potentially-flawed AI 
algorithms? And what role should the Federal Government and 
State Governments play in the distribution of digital identity?
    Ms. Renieris. Thank you for the question, Congresswoman. I 
think this is one of the most important questions and most 
important conversations to have around digital identity. Going 
back to Dr. Maynard-Atem's comments about the quality of data, 
I think, of course, that is a really important consideration. 
And I actually do think that we are making progress there. 
Parties who are designing these systems are more cognizant of 
the need for the data sets to reflect the populations that 
these systems will operate in.
    However, I think what we are not looking at this closely is 
who is designing and building these technologies in the first 
place. Regardless of how good underlying data is, risks are not 
going to be identified by people if we only have homogeneous 
teams building these things, because they can only perceive the 
risk that they have been exposed to or that they understand.
    The people building these things need to spot these risks 
in advance and be able to flag them, mitigate them, and build 
them into the design of the technology. So, there are certainly 
concerns around bias in the algorithms, but there are concerns 
in all of the different components of this that flows 
throughout.
    Earlier, we talked about different kinds of biometrics, 
like face and voice, which we know are subject to both gender 
and racial bias. But, increasingly, the future is looking into 
things like behavioral biometrics, which are essentially 
profiling technologies. Those are also going to raise concerns 
about equity discrimination, privacy, and inclusion.
    I think again, to make this sustainable and sort of 
forward-looking, the bad actors are always going to be able to 
outsmart the sort of state-of-the-art of the technology. So, 
the only way to get ahead of this is to think about how these 
technologies operate broadly in these socio-technical systems. 
But you are absolutely right, that is a primary concern in this 
space. Thank you so much.
    Ms. Adams. Mr. Grant, despite some of the problems we have 
discussed today, there are undoubtedly benefits to employing AI 
to protect consumers. With the increase in data breaches, 
particularly at credit reporting agencies where large amounts 
of personally identifiable information has been exposed, how 
can the AI help with distinguishing between legitimate and 
illegitimate histories of activities to detect or prevent 
digital identity fraud?
    Mr. Grant. Thank you for the question, Congresswoman. 
Before I answer that, I would love piggyback on what Ms. 
Renieris said, in that, I think as we are concerned about bias, 
and I think this plays into your question as well here, so much 
of what we are dealing with in AI are predictive systems that 
are essentially trying to use AI and machine learning to guess 
what at the end of the day, only the government really knows. I 
believe, and I talked about this in my written testimony, that 
one of the best things the government can do would be to 
advance the bill Chairman Foster recently introduced, in that 
it brings in that deterministic layer, what is actually in 
authoritative government identity systems to complement the 
probabilistic layer. And I think that is going to be one way to 
address concerns about bias.
    In terms of how AI is being used more constructively, 
particularly, when we just have terabytes of stolen identity 
data that is now being used to commit identity fraud, I think 
one thing we are seeing is a lot vendors out there when they 
can actually identify, say, what an organized crime ring is 
doing. AI can study how they enter data and then be able to 
analyze that and learn whether it is, what it looks like 
somebody is doing when they are interacting with the device, 
how they are holding it. Some of these things do tap into 
behavioral.
    But if you can start to learn what looks like it might be 
malicious behavior, you can then start to generate alerts that 
might kick some of those applications in a way that if it 
doesn't block it, it at least kicks off a secondary layer of 
examination where you can make a more informed decision.
    Ms. Adams. Thank you, sir. I am out of time. Mr. Chairman, 
I yield back.
    Chairman Foster. Thank you. And we will now recognize our 
colleague from Massachusetts, Mr. Auchincloss, for 5 minutes.
    Mr. Auchincloss. Chairman Foster, thank you for putting 
this hearing together, and I want to echo your comments at the 
beginning of this session complimenting our witnesses for the 
excellence of their written testimony. I thought it was superb. 
We certainly learned a lot. So, I appreciate that.
    Mr. Grant, in your oral testimony, you talk about improving 
the Digital Identity Act. What element of that would be asking 
the National Institute of Standards & Technology to really take 
the lead on setting the protocols and the standards for 
identity proofing, which as you said is sort of the harder 
part, would look like? I want to dig into that a little bit 
with you.
    Could you tell us maybe the three Ws of that: who should be 
involved in that process with NIST; what a good product might 
look like; and when we would be looking for that to be 
accomplished? What kind of timeframe is that going to take?
    Mr. Grant. Sure. I think, just in terms of background, 
Chairman Foster's bill focuses a lot on this. I think it is a 
way to try and address a lot of the concerns we have heard 
about today. In terms of whether it is a public sector or a 
private sector developing some of these systems, how do you 
come up with standards and best practices that can actually set 
a high bar for privacy, for security, for inclusion? I think a 
lot of concerns that people might have about different industry 
solutions or even a government solution running amuck and 
losing sight of the importance of the high bar in all of those 
areas can be accomplished with standards.
    As background for the hearing, I discussed in my written 
testimony that I used to lead the Trusted Identities Group at 
NIST several years ago. NIST has a great way to engage with 
stakeholders, not just nationally, but globally, from across 
the public and private sectors.
    And so, I think a benefit of having NIST lead this is that 
they can, frankly, bring in, whether it is technical experts, 
like David and Louise, or academics like Elizabeth, or 
entrepreneurs like Victor, to all come and provide different 
inputs and then weigh them and synthesize them in a way that 
gets some outcomes that I think might address all of those 
issues.
    I think the, ``what,'' is not just technical standards, but 
it is also the business practices. How do you collect data? 
What recourse do people have? If something goes wrong, how do 
you protect it? Really, what do I need to know beyond just 
following the technical standards?
    And the, ``when,'' NIST has tackled this for the 
cybersecurity framework, the privacy framework. In 12 months, 
it is an elevated or escalated timeframe. My former NIST 
colleagues will probably be frowning at me if they are watching 
this now because it is a lot of work to get done in a year. But 
this is a national crisis. We can get it done.
    Mr. Auchincloss. Professor Renieris, you mentioned identity 
as a socio-technical construction, which I think it is great 
way to frame it. From your perspective, what would you want to 
be seeing from a NIST product that would give you confidence 
that we are architecting government identity proofing in a way 
that is not going to lend itself to abuse, and also to my 
colleague, Mr. Taylor's, point is not going to lend itself to 
an inappropriate amount of government-concentrated power?
    Ms. Renieris. Thank you for the question, Congressman. It 
is an interesting question with regard to NIST. NIST, of 
course, is focused on technical standards. I would say the 
advantage of having NIST lead on this front is that they are 
not subject to some of the perverse incentives I was talking 
about earlier, in that they have a very long and comprehensive 
track record of designing standards in a way with the right 
incentives and considerations in mind.
    That said, I think that it is important within NIST, of 
course, that other experts are consulted, that there are these 
different types of expertise that I mentioned that go beyond 
sort of narrow mathematical, technical, and engineering 
conceptions of these things, which NIST has done before, and in 
their identity guidance has also been very mindful of some of 
those considerations.
    Now, proofing is considered a relatively technical 
exercise. But to Mr. Grant's point, I think the reason it is so 
important is because it is really the gateway to all of this.
    It is a critical first step. And what is really nice about 
that is if we rely on authoritative government-issued 
identities, those are already accounting for some of those 
things that I was talking about, and they are not being 
designed by a computer scientist exclusively.
    They are rooted to real-world socio-technical concepts as 
it is, so they are sort of a good foundation there. And, again, 
this is something I go into a bit more detail in my statement.
    Mr. Auchincloss. I am going to jump in for the last 15 
seconds for Mr. Grant, just because it is a subject of 
conversation. Increasingly, two-factor authentication as a way 
to do identity authentication, basically two orthogonal means 
of identifying itself with a password and then your text 
message or a Google app, or whatever, is that still the best 
standard for identity authentication?
    Mr. Grant. For authentication, yes. There is no such thing 
as a secure password these days. And, in fact, my old 
colleagues at NIST have told you the guidance of uppercase and 
lowercase and symbols and numbers. Even a 64-character password 
can with get phished.
    I think the big challenge these days is that even some two-
factor--the attackers have caught up with, they can phish the 
SMS codes, they can trick you into handing over the one-time 
pass code. I use the FIDO security key, which is a hardware key 
that can't be phished. I think that is where things need to 
move to is authentication using things like the FIDO standards 
based on public key cryptography.
    Mr. Auchincloss. And I am out of time. So, Mr. Chairman, I 
will yield back.
    Chairman Foster. Thank you. And I guess we have Member 
interest in another round of questions, so I will begin by 
recognizing myself for another 5 minutes.
    As part of the infrastructure package to federally 
subsidize the deployment of mobile IDs in the different States, 
it gives us an opportunity to set our own standards for privacy 
and other important aspects.
    What are the redlines for privacy that we should really 
keep our eye on, and insist have to be present? Ones that get 
mentioned frequently, for example, are no silent interrogation 
of your app, that the user should be aware every time the ID is 
presented.
    Another one that has been encountered is at a traffic stop 
when you are asked to present your digital ID, you do not have 
to turn over your physical cell phone; you simply have some 
form of electronic communication so the law enforcement officer 
doesn't get to paw around your cell phone and see what else 
might be there.
    Is there a good list somewhere? And what should be at the 
top of that list for insisting on from a privacy point of view?
    Mr. Kelts. I think there are very good lists. And in my 
written testimony, I pulled together a number of them that I 
think can be used and represent sort of a diverse cross section 
of what has been looked at so far in privacy.
    I would add to the list that you, that you included, 
Chairman Foster. I would add that one of the most difficult 
things to try to protect against is a surveillance or tracking 
or aggregating data and then sifting through that data to find 
usage patterns.
    So I think the ability to use paralyzed identifiers, 
individual identifiers for each transaction, tokens instead of 
uniform identifiers, and then being able--like enforcing not 
having central repositories to report usage, I think that is 
one of the tougher problems, but absolutely key to enforcing 
privacy for people who are going to use their digital identity 
and their trust in that.
    Chairman Foster. Yes. Do any other witnesses have something 
to add to that?
    Mr. Grant. I would just flag, I think, what is important 
really is to have a process that looks at privacy risk 
holistically. And one of the things when I was at NIST that we 
launched out of the interstate program at the time was the 
Privacy Engineering Program, which was focused on, how do you 
look at sort of a soup to nuts approach of privacy from 
different contexts and identify risks in any system, and then 
come up with technical or policy mitigations to architect 
around them? That led to the NIST Privacy Framework. That was 
something, actually, that the previous Administration had asked 
NIST to do.
    I think one reason I am excited that your legislation would 
have NIST focused here is it is the one place, frankly, in 
government or industry that I have seen that has a 
comprehensive framework that is specifically geared toward 
identity and security systems.
    Beyond that, I think the ability to granularly release 
certain data about yourself without others--when I look at how 
many copies of my driver's license might be online, especially 
over the last year, it is not really important for a lot of 
those entities to know everything about me. They might just 
need to know that I am over 21 if I was ordering whiskey during 
the pandemic, which I might have done once or twice, or that I 
am eligible for something else. I think being able to focus 
just on sharing specific things about myself without all of my 
data, is going to be quite important.
    Ms. Renieris. If I could also jump in, I think one of the 
important things to recognize is the need to go upstream. By 
the time the data is collected or captured, it is often too 
late to have effective privacy protections in place. So, we 
really do need to think about data minimization and other 
techniques. Certainly, privacy-enhancing technology is playing 
an important role here.
    But a concern there, of course, is that they often are very 
complex, which can result in a lot of user error. So, we also 
have to think about things like design. We are really moving 
away from the graphical user interface. We have other types of 
interfaces that we are moving into in the future. So, we are 
not going to be able to present long and cumbersome privacy 
notices and expect people to be able to ingest them and really 
understand what is happening.
    So, design is growing more critically in importance there. 
Particularly, the faster and sleeker these credentials can be 
used and the quicker the interaction is, the more important 
that the design, sort of on the back end and the front end, and 
also in terms of the privacy standards and engineering, is 
really front and center before we talk about what we do with 
the data.
    Chairman Foster. Thank you. And one of the killer apps for 
this, as it were, is Central Bank Digital Currencies (CBDCs), 
which the Financial Services Committee is very involved in. And 
that immediately gets into international usage, because digital 
dollars should be useful for people around the world, and we 
are going to have to authenticate participants. What is the 
status of international interoperability of these various ID 
initiatives?
    Mr. Grant. Well, I would say at least from a regulatory 
perspective in the banking world, it was about a year-and-a 
half-ago that the Financial Action Task Force (FATF), which is 
the body of global financial regulators that work together, put 
out digital identity guidelines. But I would say it is much 
more of a cookbook in terms of how each country should look to 
design digital identity systems for some of these types of 
applications, including potentially CBDCs.
    In terms of true interoperability, I think a lot of it is 
going to have to focus on different countries, including the 
U.S. developing digital identity infrastructure, and then 
finding ways, whether it is through treaty negotiations or 
other mechanisms, to mutually recognize them, and I don't think 
we are there yet.
    Chairman Foster. Thank you. And I now recognize Ranking 
Member Gonzalez for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Mr. Chairman. I am going 
to probably just stay on one track around Know Your Customer 
(KYC) and Anti-Money Laundering (AML). And this is for Mr. 
Grant. It is widely reported that the basics of traditional 
identity information that the government requires thanks to 
user KYC, AML, so, name, address, Social Security number, et 
cetera, are widely for sale on the dark web. I, too, may have 
purchased some things online to get me through the pandemic. 
And you just never quite know where all that information ends 
up. But it doesn't give you the best feeling, frankly, when you 
turn on the news and every day there is a different cyber 
attack.
    And sophisticated banks and Fintechs are using AI-based 
tools to verify information using multiple massive data sets 
instead of government-required info. Can you speak just from a 
cybercrime standpoint what the move to digital ID in the United 
States can get us?
    Mr. Grant. I think it makes it a lot harder for the 
attackers who are exploiting what in some cases is nonexistent 
digital identity infrastructure or legacy tools that worked a 
few years ago, but that the attackers have caught up with. And 
so, much of what I think about when it comes, not just with 
identity, but anything when it comes to cybercrime and 
cybersecurity is, how do you prevent scaleable attacks? How do 
you raise the cost of attacks so that it is not easy for an 
attacker to do, frankly, what we have seen in banking or 
government benefits over the last year at the slightest 
through-some of these systems?
    I think the more you know, whether it is looking at some of 
the deterministic factors we can bring in with what Chairman 
Foster's bill would do, in terms of being able to ask an agency 
to vouch for you, just like you can use your card in the paper 
world. How do you use it digitally? How do you augment that 
with AI as well to try and--I think I had mentioned before 
Congresswoman Adams had asked, how was used AI used. AI can 
study how criminal rings do things and look for telltale signs.
    Putting those together, we are in a bit of an arm's race 
against increasingly organized criminal gangs. They are 
starting to use AI as well. I think we are going to need, 
unfortunately, every weapon at our disposal to guard against 
these increasingly sophisticated attacks.
    Mr. Gonzalez of Ohio. Thank you. Mr. Fredung, same 
question. From a cybersecurity and a protection standpoint, 
what does moving toward digital ID do for your average 
American?
    Mr. Fredung. Yes, thank you Congressman. First of all, I 
would like to follow up with what Jeremy mentioned in regards 
to staying ahead of the more sophisticated sources as well. For 
what we are seeing in space like the east attacks by sharing 
information on the government, this is pretty much easy for 
companies such as ourselves to prevent our assets. The more 
sophisticated ones using, let's say, EID phase, for example, 
those are the tougher ones to essentially track down.
    Switching from we used to refer to as data elevation--I 
think you mentioned in regards to the social security number, 
or I think a list but also mentioned in regards to the other 
corridor was checking quality information from one individual 
against the database.
    That is quite out-aged to be completely honest, because 
anybody can steal anybody else's information. And government 
databases don't give you a particularly accurate assault. So by 
moving towards more of the identification which combines facial 
documentation alongside biometric identification, it is 
definitely, in our experience, the way to move ahead.
    Mr. Gonzalez of Ohio. Thank you. Mr. Chairman, I yield 
back. I have no more questions.
    Chairman Foster. Thank you, and we will now recognize Mr. 
Casten for 5 minutes.
    Mr. Casten. Thank you. And I am glad we have the second 
round, because I ran out of time with Professor Renieris. I 
want to follow up, and I want pick up on some stuff that I 
think you alluded to with Mr. Budd and Mr. Auchincloss.
    There are few advantages of blockchain and distributive 
ledger technology, more broadly, as far as, obviously, creating 
a record of this digital ID where it is and making sure there 
is some integrity to the data that stores it. There is also, as 
we have seen in the crypto space, the potential for the 
anonymity that comes from to be abused.
    And so, I guess I have a two-part question. Number one, are 
you satisfied that blockchain is the right technology to store 
the data around a digital ID? And let me just hear your answer 
to that before I go to the second question.
    Ms. Renieris. Thank you for the question, Congressman. I 
list in my written testimony and quite explicitly point out 
that I think blockchain is actually the wrong technology for 
personal identity management. I have a lot of experience in 
that space. I have worked directly in-house with blockchain 
start-ups. I worked with many of my own people since the 
various intergovernmental groups on this.
    Blockchain is inherently an accounting technology. Its 
features are transparency, auditability, traceability, and 
permanence for mutability. Those are things that you might want 
to use, for example, for supply chain management, but they are 
really not things that you want to use for personal identity 
management if you are concerned about the privacy and security 
of individuals.
    Over the last 4 to 5 years, as I have been part of these 
conversations with governments and industry, there have been 
many, many technical solutions proposed to get around some of 
the concerns, a lot of different pseudonymization and 
anonymization techniques, a lot of different methods of 
encryption. But, conceptionally--and at the heart of what 
blockchain does and what it is designed to do is really at odds 
with poor data protection principals around things like data 
minimization.
    For example, if I want to prove who I am, I don't want that 
data replicated across nodes around the world. If I do that, I 
don't know if the data is stored indefinitely.
    So really, to me, it is a complete misfit between the 
purpose you are trying to achieve, but I know you have more 
questions.
    Mr. Casten. That is helpful. The reason I tied this to my 
earlier question is because, in my head at least, this is tied 
to, is there going to be a privately-owned for-profit digital 
ID that is going to get out ahead of us? Because the value of 
that data--there is the narrow part of my biometrics, that this 
is me and I know this is you. And then, there is all of the 
metadata around it, which is, of course, where the money is. 
Right? Who are you connected to? Where was the GPS tied when 
you used your ID? What did you use your ID for, et cetera, et 
cetera?
    However we store this--and I will stipulate that you have 
an idea in your head about where we should store this digital 
ID--should we also be using that same place as a repository for 
that metadata? Where should that metadata live, because someone 
is going to use it, and what are your thoughts on that?
    Ms. Renieris. Yes, it is a really important point to make. 
And I think that sophisticated for blockchain--teams working on 
this have recognized that it is really a bad idea to store the 
actual identity credentials on the ledger, so they have come up 
with workarounds for that. But ultimately the ledger of the 
blockchain is a record of the metadata that you are describing, 
the transactional data.
    And I think a really important thing that is very 
overlooked in this conversation is that the commercial 
incentives I was talking about in the business model, the 
revenue models here can really undo a lot of the technical 
features intended to provide privacy and anonymity.
    For example, of a lot of the blockchain-enabled identity 
schemes, really lacked a business model. And a common one that 
is proposed is a kind of scheme where the verifying party pays 
the issuer of the credential when that credential is used to 
kind of recoup some of the costs of issuing the credential.
    When you have that kind of scheme where you pay for 
verification, ultimately, you have to be able to separate the 
accounting and the transactions. And that is actually a more 
sophisticated problem to solve. And a lot of companies I have 
seen in this space have thought about it, if they even thought 
about the question. And so, again, even if you use best sort of 
encryption technologies or anonymization techniques in place, 
you might have a business model that undoes all of the benefits 
of the technology.
    Mr. Casten. I realize we are out of time, and maybe this is 
a longer conversation, but if I take my government-issued 
passport right now, that has a whole lot of metadata in it. It 
has the date of issue, it has where I have traveled, it is all 
information. And there is some value to governments of having 
that information like my birth certificate or anything else.
    If we do a perfect government digital ID, should we be 
collecting and accumulating that metadata if we get into 
privacy issues and all of the rest of that? Somehow, we have to 
solve that, right? And I realize I am out of time, but you are 
welcome to respond.
    Ms. Renieris. I think the question is, to what end and for 
what purposes? And I think those would have to be explicitly 
stated upfront. This is something I also alluded to in my 
written testimony. And I am happy to provide more feedback on 
the record.
    Mr. Casten. Thank you. I yield back.
    Chairman Foster. You could possibly implement a witness 
protection program using a blockchain-enabled ID, which is 
essentially government-sponsored identity fraud.
    We will now recognize Mr. Taylor for 5 minutes.
    Mr. Taylor. Thank you Mr. Chairman. Mr. Casten, I think if 
you go back to last year, Professor Renieris actually resigned 
from the ID 2020 project, objecting to blockchain. So, you 
actually asked the exact right person about blockchain and 
identity.
    And it was a really fascinating conversation, 
Representative Casten. Would you like to take 60 seconds to 
kind of continue down this rabbit hole?
    Mr. Casten. Oh, you are very kind. I will defer to your 
time. Maybe we can just follow up. Maybe we can set up a time 
for the three of us, if you would like, to get together when we 
are not watching the clock. I appreciate it.
    Mr. Taylor. Sure. I appreciate your passion for this 
particular topic and the importance you feel of not using 
blockchain technology for identification.
    Just going back down kind of the horror story, it is really 
instructive to me to know what not to do, as well as sort of 
what to do.
    Dr. Maynard-Atem, I know in your written testimony you 
talked about, I believe, the health system in Kenya, women's 
ability to access that because of the identification system 
they put in place. Do you want to expand with on what you have 
seen in terms of how not to do it or how we shouldn't do it in 
a digital identification system?
    Ms. Maynard-Atem. Absolutely. Thank you for the question, 
Congressman. I think in my written testimony, I do share a 
little bit of the horror stories or the ways that it has gone 
wrong. And a lot of that comes from--and I think Professor 
Renieris mentioned this previously--not taking into account who 
your actual users are, and not taking into account what it is 
that they are trying to achieve with digital identities and any 
solutions that are put in place.
    In the instance in Kenya that I referenced, lots of people 
in that particular market, women don't tend to have access to 
the required documents or mobile phones, et cetera, to allow 
them to make their way through the process of obtaining a 
digital identity.
    If I think about examples here in the UK, a lot of the 
digital identities previously and the schemes have been tried 
have been relied on having certain documents or access to the 
internet, for example. And I think it is 20 percent--but don't 
quote me on that--of the UK who don't have those government-
issued documents.
    So if your predication of digital identity is based off of 
having access to particular things, whether that is documents 
or whether that is a mobile phone, et cetera, then 
automatically you are excluding X percentage of your entire 
population that you are designed to serve.
    I think the requirements gathering the start of all of 
these exercises needs to take into account the different 
situations that people are in, and you need to be able to 
account for those different situations.
    So, yes, all of us on this call clearly have access to 
technology and government-issued IDs, but we need to be 
thinking about the people who don'thave access to those things 
or who might not be able to access those things, those people 
who can't necessarily use technology to get to the systems that 
they need to, to get to the services that they need.
    I think it all starts at the very beginning of the process 
and being able to identify all of the different use cases that 
you are trying to serve, rather than just the most common use 
cases that you can satisfy the majority of people. We need to 
take into account all of those differences and make sure we are 
accounting for those in the solution that we produce.
    Mr. Taylor. Professor Renieris, just getting back to you, 
you touched briefly on India in my prior question. Could you 
just talk a little bit about how, in your mind, India went 
wrong? I think that is--I don't want to put words in your 
mouth. I recall that phrase by you.
    Ms. Renieris. Sure. I think the situation with Aadhaar in 
India is--there are a couple of places where they went wrong. 
First, they intended this single unique identifier and the 
system to apply to every aspect of life.
    So, there is literally nothing you can access without using 
it. And it is entirely traceable across all of these facets of 
life by the government. The constitutional court subsequently 
looked into this and specifically said that it was an overreach 
and that there are concerns about dialing some of that back.
    But in terms of the questions surrounding inclusion, that 
was also the concern there, because of the complexity of India 
and because of the complexity of the population, everything 
from different languages to different cultures to very 
different infrastructure in different regions in the country, 
there wasn't enough consideration around how groups might be 
impacted in that respect and how they might be excluded.
    I think we have a very similar problem here. You talked 
about broadband earlier in the hearing where we don't have a 
homogenous population, we don't have universal access to 
things.
    And if we sort of, as Dr. Maynard-Atem said, if we only 
solve for the majority, then for the tyranny majority there and 
we don't have the pluralism and pluralistic perspective we need 
to design a system that is actually inclusive in the works for 
most people.
    Mr. Taylor. Thank you. I appreciate that, Professor.
    Mr. Chairman, I yield back.
    Chairman Foster. Thank you. And we will, finally, recognize 
Representative Adams for 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. Cyber attacks are the 
fastest-growing crime in the U.S., and one of the largest 
threats to the data in the electronic infrastructure today. 
Studies have predicted that the business world fall victim to 
ransomware every 11 seconds this year. A centralized digital ID 
base with people's personal information would be a huge target.
    So, Mr. Kelts, can you discuss the cryptography and the 
smartphone techniques available so that there would be no need 
for a central digital ID database?
    Mr. Kelts. Yes. I think that there are multiple different 
architectures that can support what you are referring to and 
not have any centralized database. In the mobile driver's 
license, there are opportunities to take that data and put it 
onto the smartphone itself, along with the cryptographic 
signatures so that when that data is shared, selectively 
shared, the signatures can be shared with it, and the verifier 
can take the signatures and check on that data.
    I think there are other architectures similar to that. And 
I actually think that is something I can distribute a ledger or 
blockchain that holds caches, has that capability if I have the 
data. And if I present it to you as a business or verifier of 
the data, you can then go and check the veracity of that data.
    In addition to non-centralized databases, having access to 
verifiable data, cryptographically-verifiable data can reduce 
the need for businesses themselves to store the end result, 
because they know the next time that person comes along, they 
will get fresher, newer validated data, and they don't have to 
keep large records. I think that has the potential also to 
reduce not just centralized databases, but peripheral databases 
that are also the targets of that.
    Ms. Adams. Right. Thank you very much, Mr. Chairman. I have 
no further questions. I yield back.
    Chairman Foster. Thank you. And I would like to thank our 
witnesses for their testimony today.
    The Chair notes that some Members may have additional 
questions for these witnesses, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And with that, this hearing is adjourned.
    [Whereupon, at 1:40 p.m., the hearing was adjourned.]

                            A P P E N D I X

                             July 16, 2021
                             
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                            
</pre></body></html>
